Audit of USAID's Compliance With Federal
Requirements For Annual Ethics Training and
Financial Disclosure Reports For Selected Employees

Audit Report Number 9-000-03-003-P

December 30, 2002




                    Washington, D.C.
December 30, 2002

MEMORANDUM
FOR:           Designated Agency Ethics Official, Arnold J. Haiman

F R O M:       IG/A/PA Director, Dianne L. Rawl /s/

SUBJECT:       Audit of USAID’s Compliance with Federal Requirements
               for Annual Ethics Training and Financ ial Disclosure Reports
               for Selected Employees (Report No. 9-000-03-003-P)

This memorandum is our final report on the subject audit. In finalizing this
report, we considered your comments on our draft report and have included
this response as Appendix II.

This report includes ten procedural recommendations. Based on your
written comments we consider all ten recommendations to have received a
management decision. Information related to your final action on these
recommendations should be provided to USAID's Office of Management
Planning and Innovation.




                                                                               1
Page intentionally left blank




                                2
Table of
Contents   Summary of Results                                      5

           Background                                              6

           Audit Objective                                         7

           Audit Findings:                                         8

                  Did USAID comply with federal requirements for
                  financial disclosure reports and annual ethics
                  training for selected employees?                 8

                         Financial Disclosure Tracking System
                         Needs Improvement                         8

                         Employees With Contracting Warrants
                         Not Always Required To File Financial
                         Disclosure Reports                        19

                         Compliance With Ethics Training
                         Requirements Cannot Be Tracked            21

                         Annual Ethics Program Questionnaire
                         Contained Errors                          24

           Management Comments and Our Evaluation                  26

           Appendix I - Scope and Methodology                      29

           Appendix II - Management Comments                       33




                                                                        3
Page intentionally left blank




                                4
Summary of   The Office of Inspector General's Performance Audits Division conducted this
Results      audit to determine whether USAID had complied with federal requirements
             for financia l disclosure reports and annual ethics training for selected
             employees. USAID has written policies regarding these requirements that
             reflect federal requirements for these activities and describe tracking systems
             in place that are intended to ensure USAID can fully meet these requirements.
             However, due to the limitations of its financial disclosure tracking system,
             ethics program managers were unable to determine whether every individual
             required to file a disclosure form had done so. Similarly, the ethics program
             managers did not have a reliable system to identify specific individuals who
             were required to attend training and ascertain that they had done so. (See
             pages 7 through 8).

             Federal agencies must have systems in place for both financial disclosure
             reporting and ethics training requirements to ensure applicable employees are
             identified and file the reports and receive the training. USAID's Financial
             Disclosure Tracking System (FDTS) needs several improvements in order to
             serve as an effective tracking tool for financial disclosure reports. Using the
             FDTS, it is unclear exactly which USAID employees are required to file
             disclosure reports. Other needed improvements cited include enhanced use of
             periodic downloads from USAID's personnel system, identifying upfront
             which personal service contractors and foreign service nationals should file
             disclosure reports, using exception lists to track late filers, and preparing
             detailed written procedures describing all aspects of maintaining and
             operating the FDTS. (See pages 8 through 19).

             In a small number of cases, employees—with contracting warrants—that
             should have filed disclosure reports were not required to file such reports
             because their positions had been misclassified as not meeting the criteria
             specified in federal regulations. Requiring all warranted contracting and
             executive officers—regardless of their specific duties—to file annual financial
             disclosure reports is a remedy that would be easy to implement. (See pages
             19 through 21).

             USAID's current system of tracking the annual ethics training requirements
             for many of its employees does not provide any assurance that the federal
             requirements for training are being met. The tracking list is incomplete and
             formatted to make it difficult to use as a tracking tool. With only limited
             testing we identified 18 public filers and 20 warranted officers either not listed
             or listed and not shown as having received ethics training. (See pages 21
             through 24).

             Each federal agency is required to file an annual report with the Office of
             Government Ethics that contains information about the agency's ethics
             program. USAID's 2001 Agency Ethics Program Questionnaire contains


                                                                                              5
             inaccurate statistical information about the number of USAID's public and
             confidential financial disclosure filers and the number of persons receiving
             ethics training. Also, the USAID response in the questionnaire gives readers
             an unsubstantiated impression that all required financial disclosure reports had
             been filed by the date of the questionnaire and that all required ethics trainees
             actually received ethics training. Office of the General Counsel, Division of
             Ethics and Administration (GC/EA) should develop procedures for using its
             tracking systems when accumulating the data to be presented in future
             questionnaires. (See pages 24 through 26).

             USAID's Designated Agency Ethics Official (DAEO) concurred with each of
             the report's ten recommendations. (See pages 26 through 27).



Background   The purpose of the "ethics in government" program is to ensure that executive
Summary of   branch decisions are neither tainted by nor appear to be tainted by any
Results      question of conflicts of interest on the part of the employees involved in the
             decisions.

             The Office of Government Ethics (OGE) provides overall policy direction to
             federal agencies regarding their ethics programs. Because the integrity of
             decision-making is fundamental to every Government program, the head of each
             agency has primary responsibility for the day-to-day administration of the ethics
             program for the employees who carry out the substantive programs of that
             agency. The head of each agency selects an individual employee to serve as the
             agency's Designated Agency Ethics Official (DAEO) and the DAEOs and their
             staffs conduct the ethics program for their respective organizations. Among
             ethics program activities managed by DAEOs are:

                    • Their agency's public financial disclosure system.

                    • Their agency's confidential financial disclosure system.

                    • Educational programs for their agency's emp loyees about the ethics
                      statutes and standards.

             USAID's DAEO is the Assistant General Counsel for Ethics/Administration,
             who is assisted by staff of the Office of the General Counsel, Division of Ethics
             and Administration (GC/EA).

             Public Financial Disclosure: As a result of the 1978 Ethics in Government Act,
             certain high-level federal employees are required to disclose, in a public system,
             personal financial interests and affiliations for themselves, their spouses, and
             their dependent children. These public financial disclosures are made, in part, to



                                                                                                 6
                  demonstrate that the officials are able to carry out their duties without either
                  actual or apparent conflicts of interest. Disclosures also assist agencies in
                  maintaining the integrity of their essential programs and counseling employees
                  on conflict avoidance. Employees in the executive branch file public reports
                  with their respective agencies on a standard form developed by OGE (SF 278).
                  Prior to report certification, filers may be required to enter ethics agreements
                  designed to eliminate conflicts through divestiture, waiver, recusal, or other
                  similar remedies.

                  Confidential Financial Disclosure: Provisions of the Ethics Reform Act of 1989
                  authorized a uniform system of confidential financial disclosure in the executive
                  branch. That confidential system had already been formally reestablished by
                  Executive Order 12674 of April 12, 1989, and was subsequently implemented at
                  subpart I of 5 C.F.R. part 2634. Just as high- level officials are required to report
                  certain financial interests publicly to help ensure confidence in the integrity of
                  the Federal Government, the confidential filing system requires other, less senior
                  executive branch employees, whose Government duties involve significant
                  discretion in matters affecting non-Government entities, to report certain
                  financial holdings and outside affiliations to their employing agencies using
                  OGE Form 450.

                  Annual ethics training: Since 1989, pursuant to Executive Order 12674, each
                  agency is responsible for developing an annual ethics training program for its
                  employees. The training includes mandatory one-hour briefings on the criminal
                  conflict of interest statutes and the Standards of Ethical Conduct for certain
                  designated employees. Ethics training seeks to ensure all federal employees are
                  aware of their responsibilities in conducting themselves and the business of the
                  Government in a manner that is consistent with the standards of conduct
                  expected of public servants. This includes not only informing employees, but
                  also helping them understand in practical terms how those statutes and
                  regulations might impact their actions as individual employees.



Audit Objective   The Office of Inspector General's Performance Audits Division conducted this
                  audit to answer the following audit objective:

                  Did USAID comply with federal requirements for financial disclosure
                  reports and annual ethics training for selected employees?

                  This audit was initiated as a result of preliminary findings in another audit that
                  indicated discrepancies in the documentation of ethics training for required
                  employees. The audit was limited in its scope to determining whether USAID
                  had accurately identified which staff members were required to complete
                  financial disclosure reports and attend annual ethics training and whether these
                  requirements had been met. Qualitative aspects of the ethics program—such as


                                                                                                       7
                 the content of the training courses or the adequacy of the review of the
                 disclosure reports—were not addressed. Other aspects of the program such as
                 counseling and disciplinary actions for violations were also not included in the
                 audit scope. Appendix I contains a complete discussion of the scope and
                 methodology for the audit.



Audit Findings   Did USAID comply with federal requirements for financial disclosure
                 reports and annual ethics training for selected employees?

                 USAID has written policies regarding requirements for financial disclosure
                 reporting and annual ethics training that reflect the federal requirements for these
                 activities and describe tracking systems in place that are intended to ensure
                 USAID can fully meet these requirements. USAID's ethics program managers
                 believe that more individuals submitted public and confidential financial
                 disclosure reports than were required to do so. However, due to the limitations
                 of the financial disclosure tracking system, ethics program managers were
                 unable to determine whether every individual who was required to file a
                 disclosure form had done so. Similarly, although ethics program managers
                 believed that more people received annual ethics training than were required to
                 do so by law and regulation, the ethics program managers did not have a reliable
                 system to identify specific individuals who were required to attend training and
                 ascertain that they had done so.

                 USAID's Office of the General Counsel, Division of Ethics and Administration
                 (GC/EA) system for tracking compliance with financial disclosure reporting
                 requirements, which is partially based on information received from USAID's
                 automated personnel system, did not identify several instances where required
                 financial disclosure reports had not been submitted. Although reliance on data
                 imported from USAID's personnel system can present an obstacle to accuracy of
                 GC/EA's tracking system, there are several needed improvements that GC/EA
                 can independently implement to ensure the identification of USAID employees
                 required to submit disclosure reports and confirm whether the reports were
                 received.

                 USAID's tracking system for ethics training —used in 2001—needs to be
                 redesigned to provide assurance that USAID is meeting federal ethics training
                 requirements. This system cannot be used to identify all employees required to
                 have training.

                 Financial Disclosure Tracking System
                 Needs Improvement

                 The Office of Government Ethics (OGE) describes a "well-run ethics program"
                 as one that includes up-to-date listings of financial disclosure report filers and


                                                                                                      8
has mechanisms in place to ensure required reports are promptly filed. In
addition, procedures for administering the tracking system should be
documented. GC/EA uses an automated database system—originally designed
by the Office of Information Resources Management—to identify USAID's
financial disclosure report filers. However, the database has not been an
effective tool because:

        •   The database included erroneous data downloaded from USAID's
            automated personnel system, requiring GC/EA personnel to
            manually override USAID's system.

        •    Personnel data periodically downloaded from USAID's personnel
             system was not used to the fullest extent possible.

        •    GC/EA needs to develop uniform procedures to ensure it can identify
             all non-direct hire personnel who need to file financial disclosure
             reports and track their compliance.

        • Exception or deficiency listings from the database were not produced
          or used to follow-up on employees who did not file required financial
          disclosure reports on time.

        •    GC/EA did not have updated and detailed written procedures that
             covered all technical aspects of maintaining its database.

Needed improvements include: better use of data extracted from USAID's
personnel database, early identification of non-U.S. direct hire personnel1 who
need to submit disclosure reports, development and use of exception lists to track
late filers, and detailed written procedures describing all aspects of maintaining
and operating the financial disclosure database.

Because it does not have an effective management and tracking system, GC/EA
collected and reviewed more reports than it believed needed to be submitted but
still did not get all required reports and received some reports after mandated
deadlines. Some employees serving in positions with significant decision-
making responsibility did not submit financial disclosure reports that would
allow independent determinations of potential conflicts of interest. With two
exceptions, all reports have now been received as of the date of this report.

Applicable Laws and Regulations —As a result of the 1978 Ethics in
Government Act, certain high-level federal employees are required to file annual
public financial disclosure reports with their agencies. These requirements are

1
 This category includes U.S. and foreign personal service contractors and foreign USAID
employees.



                                                                                          9
implemented in 5 C.F.R. part 2634. USAID employees in the following
categories are required by regulatio n to file public financial disclosure reports:

        • Employees in Executive Level positions
        • Employees in Senior Foreign Service (SFS) and Senior Executive
          Service (SES) positions
        • Employees with a personal rank of SFS
        • Personal service contractors at a rank equivalent of SFS, SES, or AD-
          18
        • Certain other senior officials 2

Annual public financial disclosure reports cover a calendar year and must be
filed by May 15 of the succeeding year. Public reports are also required from
new entrants to covered positions within 30 days of assuming the position (with
some exceptions) and a report is required within 30 days when a public filer
terminates employment or no longer occupies a covered position. Late filers are
subject to monetary penalties but the regulation also provides for deadline
extensions and waivers of the monetary penalties. 3

A system of confidential financial disclosure for federal employees dates back to
1989 and is implemented at subpart I of 5 C.F.R. part 2634. Confidential
financial disclosure is required of less-senior employees and personal services
contractors than the public disclosure system and the information required in the
confidential reports is less intrusive than the public disclosure system. In
general, employees required by 5 C.F.R. 2634.904 to file confidential financial
disclosure reports are those in positions where it has been determined the duties
involve the exercise of significant discretion in certain sensitive areas (e.g.
contracting, administering and monitoring grants, and auditing). Confidential
financial disclosure reports are for the twelve- month period ending September
30 and are required to be filed by October 31. New entrants to these positions
are, in most cases, required to file a report within 30 days of entering the
position.

USAID's Financial Disclosure Tracking System—GC/EA maintains an
automated database of financial records and requirements for individual
employees. The Financial Disclosure Tracking System (FDTS) is a database
designed for GC/EA by the Office of Information Resources Management
(M/IRM). The FDTS contains data downloaded from USAID's personnel
database and also information manually input by GC/EA staff. A separate


2
  Others requiring public financial disclosure reports include those in SMG or Schedule C
positions, AD employees above grade 15, and Special Government employees (e.g. expert
consultants) who earn over $366.66 per day.
3
  Extensions on the deadlines may be granted (an initial 45 days by GC/EA and an additional
45 days by OGE) and OGE may also waive the monetary penalty.



                                                                                         10
record is established for each individual entered into the system. Each FDTS
record contains the following data fields:

       •   The individual's name
       •   The filing year
       •   If an employee, the pay plan and grade
       •   If an employee, current position title and organization
       •   The position's number and location
       •   The position's ethics indicator, as shown in USAID's personnel
           database
       •   GC's ethics indicator for the position
       •   The due date for the required disclosure form
       •   The date on which the form was received by GC/EA
       •   The date of the most recent update of information from USAID's
           personnel system

There are separate records for each filing year, and the system was intended to
provide a record for, at a minimum, every direct-hire USAID employee
(regardless of whether the employee was required to file a report).

Filing Process for Financial Disclosure Reports—GC/EA has separate written
procedures for the filing of public and confidential financial disclosure reports.
Although the processes are similar, they have different timeframes. To initiate
each year's program, GC/EA:

       • Provides annual guidance (in March for public filers and August for
         confidential filers) on procedures and deadlines to all bureaus and
         missions.
       • Downloads data from USAID's personnel system on the listed
         employees.
       • Sends to each bureau and mission a list of employees/personal
         service contractors (PSCs) that GC/EA believes need to file a
         financial disclosure report and requests feedback if the lists contain
         errors.
       • Sends out General Notices (in April for public filers and September
         for confidential filers) to all USAID employees providing
         information about the two financial disclosure processes.

Employees receive blank financial disclosure forms and related materials at their
overseas posts or from their bureaus in Washington. Public reports filed
overseas are reviewed by mission controllers before being sent to GC/EA by
May 15. Public reports filed in Washington are submitted directly to GC/EA.
Confidential reports filed overseas are reviewed by mission controllers and
reviewed/certified by the appropriate regional legal advisor before being



                                                                                  11
submitted to GC/EA by December 1. Confidential reports filed in Washington
are submitted to GC/EA for final review and certification by October 31.

Areas for FDTS Improvements—Detailed below are five areas where
improvements in the FDTS would help GC/EA effectively track compliance
with federal financial disclosure requirements.

GC/EA's database included erroneous data downloaded from USAID's
personnel system: GC/EA periodically extracts information about USAID
positions from USAID's personnel database. All USAID positions in this
database are assigned an indicator that corresponds to the type of financial
disclosure report that the occupant of the position is required to file. In addition,
there is another indicator for positions where the incumbent is not required to file
any financial disclosure report.

Periodically, GC/EA downloads data from USAID's automated personnel
database into to its own ethics program database. The data includes employee
names, employee rank, position title, position location, and each position's ethics
indicator. This process was designed to provide GC/EA much of the
information it needed to identify all individuals who must file financial
disclosure reports. However, the ethics indicator—the principal data element
needed to build a proactive tracking system—was incorrect for many positions.
Officials in the Management Bureau's Office of Human Resources (M/HR)
admitted that, although all indicators were reviewed in September 2000 when
USAID converted its personnel system to USDA's National Finance Center
(NFC), the indicators for many positions may no longer be accurate and need to
be revised. We noted several examples of the inconsistencies this incorrect data
caused. For example, in several offices/missions, incumbents of supervisory
positions had lesser disclosure requirements than their subordinates. Eight
mission director positions, the most significant decision-making position in their
respective locations and listed in the personnel database as senior foreign service
positions, had ethics indicators requiring either no financial disclosure reporting
or only a confidential report.

Because of the erroneous information contained in the NFC personnel database,
GC/EA found it necessary to "work around" USAID's personnel system's ethics
indicators 4 and it also relied on annual feedback from each bureau and mission
correcting the lists of employees that GC/EA sent to them at the beginning of
each reporting cycle. GC/EA kept some documentation supporting the
bureau/mission feedback but, when the information was provided orally, there
was often no written record of the conversations. While GC/EA did solic it the
information, it did not enter the bureau/mission feedback into the FDTS in a
consistent way. When it received notice of an error, GC/EA sometimes

4
  A revie w of the ethics indicators for OIG positions disclosed similar problems. The tracking
for OIG employees is accomplished by OIG personnel, independent of GC/EA.



                                                                                            12
corrected the ethics indicator in the FDTS. Sometimes, it did not. In addition,
the identification and notification of erroneous ethics indicators did not typically
prompt the bureaus, missions or GC/EA to initiate a formal request to M/HR to
correct the ethics indicator in the USAID personnel database.

Because there were a number of erroneous ethics indicators in the FDTS, it
could not be used as an effective tool for identifying all required filers. A review
of FDTS data and the USAID personnel database5 in early 2002 identified 109
individuals that had not filed their required calendar year 2001 financial
disclosure reports. 6 After reviewing these names during the audit, GC/EA
asserted that the ethics indicators for 22 of the 31 public positions and 39 of the
78 confidential positions were incorrect and the reports were not actually
required. However, as of February 22, 2002, the correct ethics indicator had not
been entered into the FDTS for 3 of the 22 public positions and 23 of these 39
confidential positions. Until GC/EA develops procedures to collect accurate
data for the FDTS and keep it current, the FDTS cannot be used as the basis for
an accurate count or listing of individuals who need to file either type of
financial disclosure report. 7

An additional FDTS problem in identifying individuals required to file financial
disclosure reports is the large number of "extra" confidential reports submitted to
GC/EA causing unnecessary work for both preparers and reviewers. In its 2001
response to an OGE annual questionnaire, GC/EA reported that, although only
1062 individuals 8 were required to submit confidential financial disclosure
reports, 1330 actually filed them. The "extra" filers included a significant
number of foreign personal service contractors who were not actually required to
submit disclosure forms. This occurred, in part, because GC/EA distributed a
general notice indicating that all, rather than selected, personal service
contractors must submit reports. Although GC/EA officials later advised
missions to require disclosure forms from personal service contractors only if
their duties warranted such reporting, some missions still collected reports from
a large number of lower- level employees. However, the FDTS could not
distinguish the "extra" reports from the reports that GC/EA believed were
"required," and GC/EA reported the gross total to OGE.



5
  Personnel listings from USAID's personnel database dated May 22, 2001; October 1, 2001,
and October 31, 2001 were used in this review.
6
  The 109 consisted of 31 incumbents of positions requiring public financial disclosure reports
and 78 incumbents of positions requiring confidential financial disclosure reports.
7
  Although the FDTS has a second data field that can be used to log a GC/EA ethics indicator
(as opposed to the indicator appearing in the agency's personnel database), this data field was
often not used.
8
  Because this number was a calculation based on FDTS records, which were in turn based on
erroneous ethics indicators extracted from the agency personnel database, it was not an
accurate count of the actual number of required filers.



                                                                                            13
Although the FDTS was largely designed to both identify those individuals who
are required to submit public or confidential financial disclosure reports and to
track their compliance with this requirement, the FDTS—as it was being
administered—could only be used to accurately track reports received. It could
not be used to accurately identify all individuals required to file reports in any
given calendar year. The following recommendations address areas where
GC/EA can make improvements to improve the FDTS's ability to identify
required filers.

        Recommendation No. 1: We recommend that USAID's
        Designated Agency Ethics Official implement a consistent
        policy on identifying required filers in USAID's Financial
        Disclosure Tracking System.

        Recommendation No. 2: We recommend that USAID's
        Designated Agency Ethics Official initiate a review of all
        USAID positions included in USAID's automated personnel
        database to verify the accuracy of each position's ethics
        indicator and ensure action is initiated to correct any errors.

The uses of periodic downloads of personnel data from USAID's personnel
system into the FDTS can be expanded: GC/EA downloads information from
USAID's personnel system at the beginning of each financial disclosure filing
cycle to obtain data on personnel required to file reports. In addition, GC/EA's
procedures call for monthly downloads to update information in the FDTS and
identify new entrant filers—including new employees—who are required to file
within 30 days of assuming covered positions.

The download process updated the FDTS by comparing data from the current
download from the USAID personnel system with the prior download and
entering changes into the FDTS. Accordingly, the summary count for the March
2002 download showed that it pulled down 2179 names that, when compared to
the previous month's download, included 49 new names—employees hired and
added to the system since the prior download—and FDTS records were created
for these employees.

Although this procedure identified individuals recently added to the USAID
automated personnel database (new USAID employees), it would not identify
individuals who should have already been included in the FDTS but who were
mistakenly not listed in it. 9 Alternatively, the downloaded data should have been
matched or compared with the FDTS itself instead of the prior download. If this

9
 As of February 1, 2002, the names of 23 individuals that the agency automated personnel
system indicated were occupying positions requiring the submission of an annual financial
disclosure report were not included in the FDTS. To illustrate, during the audit period, a
contracting officer posted overseas was reassigned to Washington, D.C. to serve in a senior



                                                                                              14
cross-check had been done, GC/EA would have been able to identify
discrepancies between its system (FDTS) and the agency's automated database.
GC/EA has now revised its procedures for conducting downloads of personnel
data and comparing this data to information in the FDTS so that data regarding
new employees and previously unlisted employees can be identified and loaded
into the FDTS. GC/EA, with the assistance of a USAID contractor, is
automating and revising its monthly processes to ensure consistency in how they
are performed.

Additional tests, performed in conjunction with each monthly download, could
improve the accuracy of the FDTS. These include:

         •   A comparison of the names of senior executive/foreign service
             employees included in USAID's personnel database with the FDTS
             would indicate whether all of these employees have been properly
             tagged as public filers in the FDTS. These individuals are required
             to file public disclosure reports on the basis of their personal rank,
             regardless of the ethics indicator assigned to the position they
             occupy. We found one senior foreign service officer who did not
             submit a public financial disclosure report even though one was
             required because of the individual's personal rank. This individual
             did not occupy a position that required a financial disclosure report.

         •   A comparison of periodic downloads could be used to determine
             whether the ethics indicator assigned to any position had changed
             since the prior download. Employees occupying positions that had
             just been designated as one requiring a public financial disclosure
             report may need to be reminded to file a new entrant public financial
             disclosure report. Conversely, employees occupying positions that
             are "downgraded" may need to be asked to file a termination
             disclosure report. Comparisons may also alert GC/EA to erroneous
             changes in a position's classification. For example, M/HR believes
             that inexperienced personnel specialists may have erroneously
             changed the ethics indicators for at least some of the eight mission
             director positions listed in the database as requiring no financial
             disclosure or only confidential financial disclosure.

         •   A comparison of periodic downloads would also allow GC/EA to
             identify newly created positions and assess whether the ethics


position requiring a public financial disclosure report. The individual was not asked to file a
new entrant public disclosure report and did not submit one as there was inexplicably no
calendar year 2001 record for the employee in the FDTS. GC/EA was unable to explain why
these omissions occurred, although monthly downloads from the personnel system may not
have been performed in the same way each month. The required disclosure reports for this
individual have now been submitted and certified by GC/EA.



                                                                                             15
           indicators assigned to such positions appears to be correct or require
           further inquiry.

Although GC/EA may have performed some or all of these comparisons
manually, enhanced use of automated processes would be more efficient and
accurate.

       Recommendation No. 3: We recommend that USAID's
       Designated Agency Ethics Official identify the type and
       frequency of database comparison tests that should be used
       to identify and review the financial disclosure requirements
       for new hires, senior employees, positions with revised ethics
       indicators, and new positions.


GC/EA should develop procedures to identify non-direct hire personnel who
need to file financial disclosure reports and track their compliance: USAID's
automated personnel database does not contain information on U.S. and foreign
personal service contractors (PSCs) or foreign service national (FSN)
employees. GC/EA is largely dependent on input from the individual USAID
bureaus and overseas missions to identify those PSCs and FSNs who must file a
financial disclosure report. As described earlier in this report, GC/EA solicits
this information at the onset of each financial disclosure filing cycle. An
examination of a listing of confidential filers for 2001—downloaded from the
FDTS on February 6, 2002—indicates that many PSCs and FSNs filed financial
disclosure reports for 2001.

GC/EA, however, has not developed a system to track whether it receives this
feedback from all bureaus and missions. Although GC/EA personnel
maintained a system to track whether they sent out requests for data to each
bureau and mission, they did not have a system to track whether they received
the requested responses. Additionally, GC/EA did not input data on the PSCs
and FSNs that bureaus and missions reported were required to file reports, until
the financial disclosure report was actually received by GC/EA. The FDTS,
therefore, could not be used as a tracking tool to identify missing and late
reports.

To improve the efficiency and effectiveness of its compliance oversight, GC/EA
officials should use the FDTS not only to track receipt of reports from PSCs and
FSNs but also to alert them when the reports have not been filed and deadlines
are approaching. GC/EA could notify responsible managers and contracting
officers and ask for assistance in obtaining the required reports.




                                                                               16
        Recommendation No. 4: We recommend that USAID's
        Designated Agency Ethics Official establish procedures to
        track the receipt of data requested from overseas missions
        and Washington bureaus about personal services contractors
        and foreign service national employees that need to file
        financial disclosure reports, follow up when responses are not
        received, and promptly input the data received in the
        Financial Disclosure Tracking System.

GC/EA does not produce or use exception listings from its database to follow-
up on employees who do not file required financial disclosure reports on time:
One of the biggest benefits or purposes of a database tracking system is the
ability to identify certain attributes (or lack of an attribute) in the database
population. In the case of GC/EA's FDTS, the effort invested in maintaining the
database should be rewarded with easy identification of required disclosure
reports that have not been submitted.

GC/EA does not produce "exception" reports from the FDTS that list the names
of individuals who have not yet submitted required disclosure reports. Instead,
GC/EA relies on its staff to remember which reports are late—in addition to
using manual records—and on bureaus and missions to collect and submit the
required reports. Using the database's capability to produce such exception
reports would be much more effective.

At least 9 individuals (including 2 mission directors) occupying positions with
accurate ethics indicators in the FDTS had not filed required calendar year (CY)
2001 public disclosure reports as of February 1, 2002. At least 39 individuals
occupying positions with accurate ethics indicators in the FDTS had not filed
required CY 2001 confidential reports as of February 1, 2002—three months
after they were due. 10

Collecting disclosure reports from all required employees can be a difficult task.
For example, many employees are posted overseas and because of the postal
anthrax scare in the fall of 2001 overseas pouch mail was often severely delayed
or even lost. However, mail delays cannot explain la te reports submitted by
personnel working in USAID's Washington headquarters. Once erroneous
information has been corrected, the FDTS could be better used to identify late
filers—the first step to ensuring full compliance and collecting monetary
penalties (or obtaining waivers from OGE when circumstances warrant).

10
   Four of these employees actually occupy positions that were determined to require an even
greater level of disclosure—the public disclosure report. These employees filed neither the
confidential disclosure reports when due (as called for in the FDTS) nor new entrant public
reports within thirty days of assuming these positions. In addition, 2 of the 78 confidential
employees cited in the report should also have filed termination SF-278 public financial
disclosure reports.



                                                                                          17
With two exceptions 11 , all missing or late financial disclosure reports cited in
this report have already been collected by GC/EA prior to report issuance and, in
the case of the public financia l disclosure reports, waivers of monetary penalties
have been requested from OGE. Accordingly, no recommendation is presented
to call for collection of these financial disclosure reports.

         Recommendation No. 5: We recommend that USAID's
         Designated Agency Ethics Official establish procedures to
         produce financial disclosure report exception lists from its
         database at specific intervals during the year, particularly
         near the end of each reporting cycle. The reports should be
         used to remind late filers of their responsibilities and the
         consequences for non-compliance. The database should
         incorporate notations regarding communications with late
         filers and any reasons for unusual delays.

GC/EA needs updated and detailed written procedures that cover all technical
aspects of maintaining its FDTS: The Ethics in Government Act of 1978
requires written procedures for collecting, reviewing, and evaluating the
financial disclosure report filing systems and GC/EA's current procedures have
been found by OGE to have met this requirement. However, GC/EA's written
procedures have a shortcoming because they do not provide the information a
new or temporary employee would need to adequately assume this function. A
"user manual" is essential to ensure unexpected staffing changes or absences do
not prevent GC/EA from properly maintaining, operating, and using the FDTS.

Until the recent hiring of a new staff member, only one GC/EA staff member
could operate the FDTS—a vulnerable situation for any program and all
elements of the FDTS must be well documented to ensure its uninterrupted
operation in the event of staffing turnover. Mastering the nuances and details of
the FDTS and USAID personnel databases requires on-the-job experience and
practice. Although the FDTS database itself is based on an off-the-shelf
application, learning the various tests and procedures that should be used to
manipulate and record the data for this specific government program would be
problematic without a reference manual. These detailed written procedures
should include instructions on: (1) inputting data into the system, (2)
downloading USAID's personnel records and how this information should be
used in conjunction with the existing FDTS database, (3) obtaining deficiency or
exception lists of late filers to ensure adequate followup action is taken to collect
delinquent reports, (4) obtaining exception lists to use in conjunction with
staffing patterns to identify staffing changes, and (5) the timing and frequency of
all tests.

11
  The exceptions include one confidential filer who has reportedly been referred for
disciplinary action and one individual who has not yet filed a required termination public
disclosure report.



                                                                                             18
           Recommendation No. 6: We recommend that USAID's
           Designated Agency Ethics Official prepare detailed written
           procedures or a user manual describing all aspects of
           maintaining and operating the Financial Disclosure Tracking
           System.

Employees With Contracting Warrants Not Always
Required To File Financial Disclosure Reports

Contracting officers or employees with contracting warrants are among the
USAID employees most vulnerable to questions of conflict of interest, and the
duties and responsibilities of each contracting position must be carefully
scrutinized to determine if its incumbent should be required to file an annual
financial disclosure report. In a small number of cases, warranted employees
that should have filed disclosure reports were not required to file because their
positions had been misclassified as not meeting the criteria specified in Federal
regulations. Requiring all warranted contracting and executive officers to file
annual financial disclosure reports is a remedy that would be easy to implement.
As discussed above in the preceding section of the report, employees in positions
where it has been determined the duties involve the exercise of significant
discretion in certain sensitive areas are required to file confidential financial
disclosure reports. 12

As explained by an Office of Government Ethics (OGE) official, Federal
agencies have discretion in determining which of their employees meet these
criteria. For example, an employee who holds a contracting warrant would not
necessarily be classified as a "confidential filer," as this would be just one factor
to be considered along with such things as the level of supervision the employee
receives. An employee with a contracting warrant may occupy a position that
does not involve procurement responsibilities or actual use of the warrant.
Similarly, "auditing" is cited in the regulation but some auditors may hold

12
     These employees are described in 5 C.F.R. 2634.904 as those where:
           (1) The agency concludes that the duties and responsibilities of the employee's position
               require that employee to participate personally and substantially through decision or
               the exercise of significant judgment, in taking a Government action regarding:
               (i)       Contracting or procurement;
               (ii)      Administering or monitoring grants, subsidies, licenses, or other federally
                         conferred financial or operational benefits;
               (iii)     Regulating or auditing any non-federal entity; or
               (iv)      Other activities in which the final decision or action will have a direct
                         and substantial economic effect on the interests of any non-federal
                         entity; or
           (2) The agency concludes that the duties and responsibilities of the employee's
               position require the employee to file such a report to avoid involvement in a real
               or apparent conflict of interest, and to carry out the purposes behind any statute,
               Executive order, rule or regulation applicable to or administered by that
               employee.



                                                                                                19
positions (e.g., policy positions) that do not entail performance of any audits or
audits of non-federal entities.

Federal agenc ies have the difficult task of reviewing all of their positions and
classifying each as to whether the employee needs to file a disclosure report.
Some positions should be accorded special attention due to their specific
mention in the regulations. New entrants to a "confidential filer" position—
under 5 C.F.R. 2634.903 (b)—have only 30 days to file an interim financial
disclosure report and it is difficult for organizations to quickly identify these
cases and ensure the reports are timely submitted. Some organizations, however,
have eliminated this problem and simplified the process of determining which
positions (in career fields such as those cited in the regulations) require financial
disclosure by imposing a blanket requirement that all incumbents in the career
field file financial disclosure reports. An example of this would be USAID's
Office of Inspector General where all auditors, regardless of specific duties or
rank, are required to file a financial disclosure report.

We obtained a listing of contracting officials (96 individuals) and executive
officers (54 individuals) in USAID that have a contracting warrant and tracked
these individuals and their current positions to USAID's staffing pattern and also
to GC/EA's listing of employees that had filed financial disclosure reports. The
majority of these employees—134 of 150 individuals—had filed financial
disclosure reports in 2001.13 An additional three employees were late in filing 14
and five employees were either still in training status or their warrants were
subsequently rescinded as no longer needed.

At issue are the remaining eight warranted employees in positions classified as
not requiring financial disclosure reports and, accordingly, did not file them.
Although some of these positio ns clearly meet the criteria of 5 C.F.R. 2634.904,
it could be argued that some may not. The eight include:

        • One Office of Procurement (M/OP) contracting officer actively
          engaged in procurement activity.
        • One supervisory contracting officer posted overseas.
        • Three executive officers based in Washington whose warrants are not
          valid in the U.S. but who may be assigned temporary duty overseas
          and use their warrants at those times.
        • One M/OP supervisory contracting officer occupying an ombudsman
          position.
        • Two M/OP contracting officers occupying policy positions and not
          actively engaged in procurement activities.

13
   Twenty of these 134 individuals had filed financial disclosure reports though USAID's
staffing pattern indicated the position did not require any disclosure. This problem is
discussed in the preceding section of the report.
14
   These are included in the problems discussed in the preceding section of the report.



                                                                                           20
Requiring all warranted employees to file annual financial disclosure reports
would help ensure USAID's compliance with ethics regulations and involve only
minimal additional effort by GC/EA. M/OP already has lists of warranted
USAID officials and cross-checking those lists to GC/EA's financial disclosure
tracking system database would be a relatively simple task. Any inaccuracies in
the USAID staffing pattern's ethics indicators for these positions would be
identified, and the need to review the specific duties of these positions to
determine whether some may not need to file would be eliminated. Also, the
number of additional financial disclosure reports that might be filed would be
modest. GC/EA issued an agency general notice on September 5, 2001 that
requires annual financial disclosure reports from warranted officers and
employees. Accordingly, no recommendation is being made.

Compliance With Ethics Training
Requirements Cannot Be Tracked

The Office of Government Ethics (OGE) describes a "well-run ethics program"
as one that includes tracking to ensure that all employees who are required to
receive annual ethics training actually receive the training. USAID's current
system for tracking compliance with the annual ethics training requirement for
many of its employees does not provide any assurance that the Federal
requirements for ethics training are being met. Although USAID has made an
aggressive effort to provide the training to as many USAID employees as
possible—more than just those required to have the training—its ethics training
tracking system cannot be used to identify all employees required to receive
training. The database does, however, indicate that some employees who
needed training in 2001 did not receive it.

Since 1989, pursuant to Executive Order 12674, federal agencies have been
responsible for providing mandatory one-hour ethics training briefings each year
for their employees. The following groups of employees are required by 5
C.F.R. 2638.704 and 2638.705 to have annual ethics training:

       • Presidential appointees
       • Employees in the Executive Office of the President
       • Employees required to file public or confidential financial disclosure
          reports
       • Warranted contracting officers
       • Other employees designated by the head of the agency based on their
         official duties

GC/EA has required personal services contractors (PSCs) to take annual training
and has encouraged all other USAID staff to also attend.




                                                                              21
To enable federal agencies to allocate their training resources in a more flexible
and efficient manner, OGE issued an interim rule in March 1997 that reduced
the burden of providing annual verbal (face-to-face) briefings. Instead of
receiving annual verbal briefings, agencies were allowed to meet the annual
briefing requirement by providing most covered employees a written briefing in
no more than two years in any three-year period. Employees filing public
financial disclosure reports are still required to receive annual verbal briefings.

Prior to 2001, USAID's Learning Support Division (M/HR/LS) tracked the
ethics training taken by USAID employees using a list of required trainees
provided by GC/EA. In 2001, GC/EA took over the ethics training
recordkeeping function and established a spreadsheet to track ethics training
compliance. GC/EA developed a list of employees requiring ethics training and,
when it received verification that the training took place, added the date of
training to the spreadsheet. GC/EA also added the names of other employees
who attended or received training if it received verification of their training.
Acceptable documentation included a written certification form, an e-mail from
the trainer or administrative officer, or a training course sign-in sheet. GC/EA
maintained the list and supporting documentation.

GC/EA staff stated they initiated the annual ethics training tracking process in
early summer by providing bureaus and missions with the names of employees
or contractors assigned to their offices who appear to need training. This
information is obtained from the USAID Financial Disclosure Tracking System
(FDTS) and includes individuals that filed public disclosure reports earlier in the
year and individuals that filed confidential disclosure reports in the fall of the
preceding year. Bureaus and missions are asked to update the lists after
reviewing the criteria for required training. GC/EA is responsible for resolving
any training discrepancies before yearend by obtaining missing verifications,
providing additional training, or determining that the training requirement for
specific individuals is no longer valid.

A review—in early 2002—of GC/EA's spreadsheet for tracking calendar year
2001 training disclosed several problems and matters which must be remedied
in order to have an effective tracking system:

        •   The employees at two overseas missions were listed twice
        •   Employees posted at the Regional Service Center in Budapest and
            several small overseas locations were excluded and overlooked
            (e.g. Podgorica, Geneva, Bratislava, Abidjan)
        •   No tests or checks were used to ensure all names from the FDTS
            were initially entered in the ethics trainee listing
        •   Employee names were entered inconsistently (e.g. William Doe
            might also be entered as Doe, William or Bill Doe) making it
            difficult to compare the spreadsheet with other databases



                                                                                 22
        •   There was no sys tem to ensure that all bureaus and missions had
            reviewed GC/EA's list and provided updated data
        •   Training verifications were not submitted on time. Although
            training must be completed by December 31, the February 6, 2002
            listing for overseas locations included 1166 entries but only 890
            were annotated to show that training verification had been
            received. As of April 5, 2002, the training status of 81 overseas
            employees was still unknown
        •   The April 5 list showed that 45 employees received their 2001
            training in calendar year 2002 because of, according to GC/EA,
            travel restrictions imposed late in calendar year 2001. However,
            more than half this number could have taken training through a
            written briefing without the need of travel for the trainer or trainee
        •   The spreadsheet does not indicate whether listed employees were
            public or confidential filers. Near the end of each training cycle,
            GC/EA will need to know each employee's status so it can
            determine what type of training the employee needs if the training
            requirement has not yet been met

A limited comparison of GC/EA's April 5, 2002 spreadsheet with lists of three
types of employees required to have ethics training identified 18 public filers,
16 contracting officers, and 4 executive officers that did not receive calendar
year 2001 training according to the April 5 listing15 . In some cases the
employees were not on GC/EA's list, in other cases the spreadsheet did not
contain any record of training received.

To be effective, an ethics training tracking system should be designed,
maintained, and used to ensure that all employees required to receive annual
ethics training actually receive it. USAID's current tracking system needs to
be redesigned to provide GC/EA assurance that USAID is meeting federal
requirements. The following recommendations focus on the establishment of
a tracking system that can provide this assurance.

        Recommendation No. 7: We recommend that USAID's
        Designated Agency Ethics Official establish an ethics
        training tracking system that is clearly tied to the financial
        disclosure tracking system to ensure all financial disclosure
        filers are included, and identifies which trainees/employees
        are (a) public filers who must have annual verbal training,
        (b) other required trainees who must have verbal training
        at least once every three years, and (c) additional trainees
        not required to have training.

15
  The comparison was limited to employees listed in USAID's phone directory as of May 1,
2002.



                                                                                       23
       Recommendation No. 8: We recommend that USAID's
       Designated Agency Ethics Official prepare detailed
       procedures for administering the ethics training tracking
       system to include specified timeframes for (a) automated
       downloads from the financial disclosure tracking system, (b)
       inquiries on current staffing to missions and bureaus, and (c)
       production of discrepancy or exception reports to identify
       required training not yet completed. Procedures should also
       include detailed instructions for entry of data and technical
       aspects of the automated system to minimize problems
       associated with possible staff turnover or shortages.

       Recommendation No. 9: We recommend that USAID's
       Designated Agency Ethics Official establish procedures to
       track whether all bureaus and missions have responded to
       the annual inquiry for updated staffing information and
       follow-up as necessary when responses are not received by
       deadlines.


Annual Ethics Program Questionnaire
Contained Errors

USAID's 2001 Agency Ethics Program Questionnaire—submitted to the Office
of Government Ethics—contained inaccurate statistical information about
USAID's compliance with financial disclosure reporting and ethics training
requirements. This occurred because GC/EA prepared its responses using the
erroneous and incomplete data extracted from its financial disclosure tracking
system (FDTS) and ethics training listing for the year as detailed above. In our
opinion, GC/EA should ensure its tracking systems can accumulate the data
requested in the OGE questionnaire to provide a clear portrayal of USAID's
performance regarding federal ethics program requirements.

Section 402(e)(1) of the Ethics in Government Act of 1978, as amended,
requires each Federal agency to file an annual report with the Office of
Government Ethics (OGE) that contains information about the agency's ethics
program. Under 5 C.F.R. 2638.602, this report is due by February 1 each year
and covers activities in the prior calendar year (CY). OGE has provided an
Agency Ethics Program Questionnaire to be used for this purpose. The
questionnaire requests information on all aspects of the ethics program including
statistical information regarding public and confidential financial disclosure
report filings required by 5 C.F.R. 2638.602 and information on the numbers of
employees receiving ethics training.




                                                                               24
Statistical tables on financial disclosure filers and employees receiving ethics
training as shown in USAID's 2001 Agency Ethics Program Questionnaire
submitted to OGE on February 4, 2002, had the following problems.

Financial Disclosure: The questionnaire asks agencies to report the number of
public and confidential financial disclosure reports required to be filed and the
number of required reports actually filed or received. Follow-on questions ask
for the reason(s) for any discrepancies between the two numbers. USAID's
response stated that: (1) 346 public reports were both required and filed, and (2)
1062 confidential reports were required and 1330 confidential reports were filed.
USAID did not answer the follow-on questions explaining the discrepancies but
the 1330 figure was annotated to explain that overseas missions submitted
reports that were not actually required.

As previously discussed in this report, the FDTS cannot be relied upon to
generate lists of employees required to file disclosure reports, although it can be
used to count the number of reports that have been filed. USAID's response,
however, gives readers an unsubstantiated impression that all required financial
disclosure reports for CY 2001 had been filed by February 1, 2002. However,
because it did not have a complete or accurate database and did not perform any
exception testing, GC/EA was actually not aware of how many employees
required to file reports might not have filed them. The fact that GC/EA collected
and reviewed more financial disclosure reports than the number it believed were
required did not eliminate the need to determine and report whether all reports
required by law had been filed, and reviews of FDTS data conducted during this
audit identified individuals who had either not filed a report or filed after
February 1.

Ethics Training: The tables at item number 3 in the Education and Training
section of the questionnaire reported that: (1) 295 public filers needed and
received ethics training 16 , and (2) 1062 confidential filers required ethics
training and 1788 received verbal training. The 1788 figure was annotated to
explain that it included 726 non-filers who also received training because many
overseas missions routinely trained their entire staff.

As previously discussed in this report (see pages 21 to 23), GC/EA's ethics
training system was not cross-checked against the Financial Disclosure Tracking
System and the names of several required trainees—public and confidential
filers—were not among those listed as having been trained. In addition, its
listing did not differentiate between those employees required to have training

16
   USAID's February 4 response noted that 2 public filers received an annual written briefing
in accordance with provisions that allow such briefings when it is impractical for a qualified
instructor to be physically present. An addendum to USAID's response dated February 15,
2002, reported that training verification for 29 of the public filers—previously reported as
delayed in the mail due to the anthrax situation—had since been located.



                                                                                            25
             and the "extra" trainees. As a result, the ethics training listing cannot be relied
             upon to generate lists of employees required to receive training, although it can
             be used to count the total number of trainees. GC/EA was not able to determine
             whether USAID fully complied with ethics training requirements. Providing
             training to more USAID employees than the number required does not eliminate
             the need to determine and report whether all required trainees actually received
             ethics training.

             USAID's tracking systems for financial disclosure reports and ethics training
             should be designed and operated to provide the statistical data required by OGE
             in its annual questionnaire. Prior sections of this report address deficiencies in
             these systems and contain recommendations for improvements that should result
             in systems that can generate the needed data for future questionnaires. GC/EA
             should develop procedures for using the tracking systems when accumulating
             the data to be presented in future questionnaires.

                    Recommendation No. 10: We recommend that USAID's
                    Designated Agency Ethics Official develop detailed written
                    procedures for identifying and extracting accurate data from
                    its tracking systems for presentation in the annual USAID
                    response to the Office of Government Ethics Annual
                    Program Questionnaire.


Management   In responding to the draft report, USAID's Designated Agency Ethics Official
Comments     (DAEO) concurred with the ten procedural recommendations and provided a
and Our      plan of action with anticipated dates of completion for each recommendation.
             The recommendations in the audit report generally relate to weaknesses and
Evaluation   problems in USAID's systems for tracking the annual ethics training and
             financial disclosure requirements. The DAEO and the staff in the Office of
             General Counsel, Ethics and Administration (GC/EA) have addressed these
             areas and the recommendations by working with a software designer to
             "fundamentally rewrite" GC/EA's existing tracking system and tie ethics training
             records to GC/EA's database. This new system—expected to be completed,
             tested, and delivered by February 1, 2003—should greatly enhance GC/EA's
             ability to identify individuals required to file financial disclosure reports and
             receive ethics training as well as timely determine whether the requirements
             were actually met. Other needed written policies and procedures are scheduled
             for completion by March 1, 2003. The DAEO's response—presented at
             Appendix II—also contained four appendices that have not been incorporated
             into this report. They are adequately described in the DAEO response without
             being presented in their entirety.




                                                                                              26
The DAEO's plan of action in response to the audit report adequately addresses
each of the recommendations. Accordingly, all of the recommendations have
been classified as having reached a management decision.




                                                                             27
Page intentionally left blank




                                28
                                                                                             Appendix I

Scope and     Scope
Methodology
              We audited selected aspects of USAID's ethics program in accordance with
              generally accepted government auditing standards. We conducted the audit
              fieldwork in USAID/Washington from October 2001 to June 2002. The audit
              scope was limited to a review of USAID's compliance with Federal requirements
              that selected employees receive ethics training and file annual financial
              disclosure reports. A critical component of the audit was an evaluation of
              USAID's management controls and automated database that are intended to (1)
              identify USAID personnel subject to these ethics program requirements, and (2)
              maintain documentation that the requirements were met.

              The audit did not attempt to evaluate the quality and content of the ethics
              training and did not assess the process for reviewing the information contained
              in the financial disclosure reports for possible financial conflicts of interest.
              Other aspects of USAID's ethics program including written opinions and
              counseling, disciplinary actions for violations, and the approval system for
              outside activities were also not a part of the audit scope.

              The audit focused on USAID's success in meeting these requirements for the
              ethics training provided in calendar year (CY) 2001 and on the financial
              disclosure reports filed in the same year. In its CY 2001 Ethics Program
              Questionnaire submitted to the Office of Government Ethics (OGE), USAID
              reported receiving 346 public financial disclosure reports (SF 278)—generally
              from senior or higher ranking employees—and 1330 confidential financial
              disclosure reports (OGE 450) from other employees. The Questionna ire also
              disclosed that 2083 employees received ethics training in CY 2001.1 These
              statistics encompass all USAID personnel including: (1) staff stationed at
              overseas missions as well as in Washington, D.C., (2) direct-hire employees and
              personal service contractors, and (3) American citizens and foreign service
              nationals. Although these statistics are inclusive of Office of Inspector General
              staff, we did not include these employees in our audit tests due to lack of
              independence.

              Methodology

              In order to gain an understanding of the ethics program as it relates to the
              audit objective, we held numerous discussions with USAID officials at
              GC/EA, the Office of Procurement, and the Office of Human Resources. A
              discussion was also held with officials of a USAID contractor—Computer

              1
                  This includes 29 employees reported in an addendum to the Questionnaire.



                                                                                                  29
Sciences Corporation (CSC)—concerning upgrades and revisions to the
Financial Disclosure Tracking System (FDTS).

In addition, we also performed the following steps:

•      Reviewed relevant laws, regulations, guidance, and directives to gain a
       better understanding of ethics requirements within the Federal
       Government and specifically USAID.

•      Obtained and reviewed a listing of USAID's personnel roster as of
       October 1, 2001 and used this as the basis for creating a database to
       compare with and assess GC/EA's database in its FDTS.

•      Reviewed "staffing patterns"—periodic downloads from USAID's
       automated personnel system—and identified which U.S. direct-hire
       positions have been designated as requiring the individual to file a
       financial disclosure report and loaded this information into our own
       database.

•      Obtained and reviewed multiple listings generated from GC/EA's
       FDTS database identifying individuals that had filed financial
       disclosure reports for CY 2001.

•      Obtained and reviewed multiple listings from GC/EA identifying
       USAID staff that had completed ethics training in CY 2001.

•      Reviewed specific FDTS database files for selected individuals and
       submitted questions regarding these cases to GC/EA for further
       clarificatio n.

•      Reviewed physical copies of a selected number of financial disclosure
       reports to confirm they had been submitted and retained.

•      Assessed design and maintenance of GC/EA's FDTS including
       observation of the process of downloading updated personnel
       information from USAID's automated personnel system into the FDTS
       database.

•      Reviewed proposed and requested changes to the FDTS being
       implemented by CSC.

•      Obtained and reviewed USAID's CY 2000 and 2001 Ethics Program
       Questionnaires submitted to OGE.




                                                                               30
•      Reviewed the OGE's report of November 22, 2000 that details its
       review of USAID's ethics program.

The audit results placed some reliance on computer- generated data obtained
from USAID's automated personnel records system without specific audit
verification of the adequacy of general and application controls for that
system. Any concerns with the accuracy of the data in that system that were
noted in the audit are disclosed in the audit findings as applicable.




                                                                              31
Page intentionally left blank




                                32
                                                                                                            Appendix II


Management
Comments

                                                                                          December 9, 2002

MEMORANDUM

FOR:              IG/A/PA Director, Dianne L. Rawl

FROM:             Designated Agency Ethics Official, Arnold J. Haiman

SUBJECT:          Response to Draft Report No. 9-000-03-00X-P


I.       INTRODUCTION

       This is the response to your draft report titled “Audit of USAID’s Compliance with Federal
Requirements for Annual Ethics Training and Financial Disclosure Reports for Selected
Employees.”

        The USAID Designated Agency Ethics Official (DAEO) is responsible for the agency’s
ethics program. The DAEO is supported by the staff of the Office of General Counsel, Ethics and
Administration (GC/EA). In addition to the DAEO, the staff consists of four attorneys (each with
significant duties unrelated to the ethics program), a GS-13 ethics program specialist, a GS-11
program specialist, and a GS-8 legal technician. 1 There are three distinct parts to the USAID ethics
program: training, individual advice and counseling, and financial disclosure. The Office of
Inspector General (OIG) audit addressed the following: the tracking systems in place for training
and financial disclosure. 2

        USAID’s overall ethics program has a well- founded reputation for excellence. It has
received numerous awards over the past several years. The Office of Inspector General (OIG)
presented GC/EA with the OIG achievement award in 1997 for its “outstanding leadership of the
ethics and financial disclosure programs.” 3 Prior to that, GC/EA received an agency meritorious unit

1
  The three latter positions will be referred to in this report collectively as “ethics specialists.”
2
  In early summer 2001, GC/EA became aware that OIG was conducting an audit of the agency’s overall training
program. The agency’s training program is the responsibility of M/HR/LRS. At that time, M/HR/LRS also maintained
the documentation of annual ethics training, although the training itself was the responsibility of GC/EA. In September
2001, OIG formally notified GC/EA that it planned to audit annual ethics training as well as financial disclosure reports.
Although the notification did not indicate the filing years that would be audited, in November 2001 OIG informed
GC/EA that it would be auditing the 2001 filing and training requirements. Therefore, with respect to confidential filings
and training tracking, the audit was underway while reports were still being received and compiled.
3
  OIG’s recognition of the quality of the content of GC/EA’s training continues. In March 2001 the Inspector General
invited GC/EA to present its values -based training, called “Ethical Decision Making,” to his senior staff at the annual
management conference. This was followed by a similar invitation and presentation at an overseas OIG investigator’s
conference in Budapest.



                                                                                                                      33
award and the Office of Government Ethics’(OGE) outstanding agenc y ethics award. OGE once
again awarded GC/EA with its “outstanding agency ethics program award” in 2001. 4 GC/EA’s
approach to training is unique in the U.S. Government, 5 and GC/EA has been at the forefront in
USAID’s anti-corruption efforts. 6

        This response consists of a general overview of the tracking system and corrections that
GC/EA has initiated, consistent with the audit’s recommendations. Throughout this audit, GC/EA
has informed OIG that we wish to make any needed corrections to enhance our tracking processes.
Therefore, this memorandum focuses on our plan of action to address the recommendations, rather
than a point-by-point response to the narrative sections preceding each recommendation.

        The specific responses to each of the recommendations made in the draft report are set forth
in Section III below. We concur with the recommendations and have set forth in detail the plan
of action and the anticipated dates of completion. We have made significant progress in
completing changes to the ethics tracking process. These changes will allow GC/EA to more
efficiently carry out its vital functions and to further enhance its reputation for excellence.

II.     DISCUSSION

        A.       GC/EA Has Substantially Completed the Overhaul of its Ethics Database.

        As indicated above, the OIG audit concerned the systems used for tracking the annual
training and financial disclosure requirements. OGE does not prescribe a particular method for
tracking. There is no standard database that is provided within the U.S. Government or that is
available commercially. USAID has developed its own system, the Financial Disclosure Tracking
System (FDTS), over the course of the last several years. Like all software and database programs,
FDTS is in a state of continued correction and refinement.

       At USAID all software and databases fall under the responsibility of the Office of
Information Management (M/IRM). GC/EA personnel are not experts in software or database
design. This expertise is provided by M/IRM. M/IRM first began working with GC/EA several

4
  The Director of OGE, the Honorable Amy Comstock, personally presented this award to USAID Administrator
Andrew Natsios in February 2001. The award was based on OGE’s findings in its statutorily-required review of the
program in 2001. OGE’s report concluded that USAID’s ethics program “not only complies with the applicable laws
and regulations but often exceeds them.” (Attachment 1.) OGE’s detailed review included positive findings and
conclusions in several areas, including program administration, financial disclosure systems (both public and
confidential), and education and training program. OGE found that GC/EA’s advice and counseling services were
“timely, comprehensive, and in compliance with the ethics laws and regulations.” With respect to the financial
disclosure function, OGE found that GC/EA had in place comprehensive written procedures and that the financial
disclosure reports were reviewed effectively. OGE found that the forms they randomly examined had been appropriately
reviewed.
5
  Director Comstock specifically cited GC/EA’s Ethical Decision Making in her comments to the Administrator at the
presentation of the OGE award
6
  GC/EA represented USAID at the 10th International Anti-Corruption Conference in Prague in October 2001 and at the
International Institute for Public Ethics in Brisbane in October 2002. GC/EA presented Ethical Decision Making at an
international seminar in London in September 2002. The participants in this seminar, including cabinet ministers and
other senior officials from developing countries, ranked GC/EA’s presentation as first in content.




                                                                                                                 34
years ago to develop the FDTS. A direct hire employee of M/IRM was initially assigned to develop
the project and to oversee its continuing effective operation. In February 2001 M/IRM assigned this
task to a contractor. Working with the GC/EA ethics program specialists, the contractor’s software
designer addressed certain flaws in the existing FDTS.7 The software designer began a two-part
response. First, he began to immediately correct easily-cured flaws in the existing system. This
became known informally as “FDTS 2.0.” Second, the software designer began a process to
fundamentally rewrite the FDTS, with the goal of the development of “FDTS 3.0.”

        The OIG audit’s findings and conclusions are based on the previous versions of the FDTS.
As set forth specifically in Section III, below, OIG’s recommendations have been integrated into the
design of FDTS 3.0. As of the date of this memorandum the software designer has completed FDTS
3.0. The contractor’s testers are beginning to test the design. Following this testing, the complete
FDTS 3.0 will be delivered to USAID and the new tracking system will be put into use. We
anticipate this to be not later than February 1, 2003.

        B.       GC/EA is Enhancing its Means of Reconciling Errors in Information Received
                 From External Sources.

        GC/EA must necessarily rely on external information in several respects to track financial
disclosure and training requirements. First, the information on the makeup of the USAID workforce
must come from the agency’s personnel database. Second, information on the exact nature of a
particular position must come from persons familiar with the duties of each position. The OIG audit
noted several problems associated with each of these external sources. As noted in the OIG report,
these problems resulted in errors in OIG’s tracking of its own employees’ ethics requirements.
Through the use of enhanced procedures GC/EA is remedying the problems for agency employees.

       The first remedy relates to the use of the agency’s personnel database. There is an essential
need for the tracking system to be based on personnel data received from the agency. The National
Finance Center (NFC) maintains this database, and the Office of Human Resources (M/HR) is
responsible for transmitting accurate data to the NFC.

        The OIG audit described two general problems associated with GC/EA’s use of the NFC
database. The first is the failure of GC/EA’s downloads of information from the NFC database to
the FDTS to recognize updates in the employment status of current employees. 8 In the past, the
downloads from NFC only provided information regarding new employees. This required extensive
efforts by the GC/EA ethics specialists in identifying changes in the employment status of current
employees and manually making updates to the FDTS, even when the NFC database is not similarly
updated.

      This problem will be resolved with FDTS 3.0. The downloads will identify any changes to
an employee’s status, including their geographical/organizational location and position number.

7
  OIG’s auditor provided valuable input during the development of FDTS 3.0, based on his informal findings as the audit
progressed. This allowed GC/EA to begin to develop its responses to the audit’s recommendations well in advance of
the final audit report.
8
  A change in employment status, such as a promotion to a higher position, could result in a filing requirement where
none previously existed.



                                                                                                                    35
FDTS 3.0 will also extract data from the NFC which shows when an employee has retired,
transferred, or otherwise left the agency.

        The other problem associated with the use of the NFC database is the frequent inaccuracy of
that database’s “ethics indicator code.” The code identifies the filing status of each employee,
whether public filer, confidential filer, or non-filer. It is key to the entire ethics tracking process. As
GC/EA does not control the NFC database, GC/EA has not been able to make changes in these
codes, even when errors are found. The official changes may only be made by staff of M/HR. As
the ethics information is not generally used by M/HR, personnel from that office have not made the
accuracy of the information a priority. As with the problem of receiving only limited information
from downloads, the inaccuracy of ethics indicators has resulted in the requirement for ethics
specialists to manually override the NFC data. The OIG audit noted the extensive efforts that were
necessary. The herculean efforts by the ethics specialists are all the more notable when one
considers that GC/EA manning was in flux throughout the audit. The previous program analyst,
who was primarily responsible for the FDTS, retired sho rtly before the audit; her successor was new
to the position – and to the FDTS – when the audit began. The ethics program specialist retired
while the audit was underway. The legal technician position has been vacant intermittently during
the entire period, as have several attorney positions.

        Changes to the FDTS will eliminate much of the need for extraordinary efforts on the part of
the ethics specialists. The FDTS 3.0 database will reflect the official NFC indicator, but it will also
have the capability for a separate, actual ethics indicator entered and updated by GC/EA.

        The entry of accurate ethics indicator codes is related to another of the external sources upon
which GC/EA relies for data. GC/EA must get its information regarding the nature of a position –
and therefore its filing/training requirements – from the bureau AMS officers (for staff in
Washington) and mission EXOs (for staff assigned overseas). This information determines what a
position’s ethics indicator code will be. GC/EA recognizes that the accuracy of the information
from these sources is dependent upon regular reviews by persons with first-hand knowledge of the
positions, along with expert guidance concerning the criteria. Therefore, GC/EA will develop
guidelines for the regular review of positions and establish deadlines (and tracking thereof) for
receipt of updated information. Additionally, GC/EA will consult regularly with AMSs and EXOs
to assure they are aware of the importance of this information, the need for its accuracy, and the
proper interpretation of the rules and criteria for filing and training. GC/EA will have the capability
for the extra efforts required for these tasks as the staff returns to full manning and as FDTS 3.0
leads to increased efficiency.

       C.      GC/EA is Also Enhancing Other Aspects of the Ethics Tracking Process.

        In addition to the ethics indicator codes, FDTS 3.0 will contain an entry for training. The
year for which GC/EA’s training tracking system was audited was the first year in which GC/EA
maintained the tracking information for training. Previously, M/HR was responsible for tracking
ethics training, even though the training was actually done by GC/EA. As noted by the OIG, the
tracking system was not tied to a database. With the changes to the FDTS, training will not only be
tracked, but the need for training for individual employees will be easily identifiable from the ethics
indicator code.



                                                                                                        36
        Finally, the changes to the FDTS will permit GC/EA to generate discrepancy reports. In
other words, while financial disclosure filings or training are in progress we will be able to query the
database to determine which employees must still file or be trained. These reports will be used to
provide timely notifications to both the individual employees and their responsible administrative
staffs.

         D.       GC/EA Uses the Best-Available Data in Responding to its Reporting
                  Requirements.

        The OIG audit addresses data contained within GC/EA’s annual report to OGE. This report
is based on the best information available to GC/EA under its existing database. This is no different
from any other office within the agency with a reporting requirement. With the changes to the
FDTS, the information available to GC/EA will be greatly enhanced, and all reports to OGE will
contain the best-available information.

III.     RESPONSE TO RECOMMENDATIONS

        We concur with the recommendations in the draft audit report. As stated in Section II.A.,
above, M/IRM and its contractor have been responsible for implementing changes in the system that
are requested by GC/EA. The plan of action with respect to many of the recommendations has
required the redesign of the FDTS, which has been accomplished by the contractor.

        GC/EA communicated its needs for database redesign to the contractor. These include many
of the audit’s recommendations. Based on these needs, the contractor established a “Legacy Action
Request” (LAR) for each individual item. (A detailed summary of each of the LARs established by
the contractor is attached as Attachment 2.) As of the date of this report, the contractor’s software
designer has completed his work on all of the LARs. (The software designer’s list of completed
LARs is attached as Attachment 3.) The changes have been incorporated into FDTS 3.0. The
contractor’s testers must still test the design, and any defects will be corrected. The contractor will
make a final delivery of FDTS 3.0 after the testing and any corrections are completed. Therefore,
these recommendations have been addressed, subject only to the technical matter of testing and final
delivery. Based on discussions with the contractor, we anticipate the delivery not later than
February 1, 2003.

        There are other recommendations that concern internal GC/EA processes for compiling and
reporting data. GC/EA has begun drafting standardized procedures. In some cases, these procedures
depend on information obtained through the FDTS, and therefore GC/EA will not finalize the
procedures until FDTS 3.0 is available for use.


Recommendation                              Plan of Action                                 Date of
                                                                                           Completion
1: That USAID’s Designated Ethics           GC/EA will develop a written procedure         The written
Official (“the DAEO”) implement a           for identifying required filers and entering   procedures, along
consistent policy on identifying required   that information into the FDTS. The            with the form
filers in USAID’s Financial Disclosure      procedure will require receipt of mission      notices to missions
Tracking System.                            and bureau information by a certain            and bureaus, will



                                                                                                                 37
                                                period prior to the filing due dates, and     be developed by
                                                will require the input of that information    March 1, 2003
                                                into the FDTS by GC/EA staff.                 (after the delivery
                                                                                              of FDTS 3.0 and
                                                                                              prior to the public
                                                                                              filing period in
                                                                                              May 2003).
2: That the DAEO initiate a review of all       GC/EA will issue a letter to all mission      The process will
USAID positions included in USAID’s             EXOs and bureau AMS officers which            commence by
automated personnel database to verify the      will provide the criteria for financial       March 1, 2003, and
accuracy of each position’s ethics indicator    filing and requests a comprehensive           will be complete in
and ensure action is initiated to correct any   review of positions and personnel in the      advance of the
errors.                                         mission/bureau. GC/EA will also               public filing period
                                                establish guidelines to assure that EXOs      in May 2003.
                                                and AMS officers understand the rules
                                                and criteria for filing, so that there is
                                                uniform application of the criteria
                                                throughout the agency. GC/EA staff will
                                                review the information and enter
                                                appropriate ethics indicators (including
                                                correcting any incorrect indicators).
3: That the DAEO identify the type and          GC/EA will establish written procedures       The written
frequency of database comparison tests          for database comparison tests consistent      procedures will be
that should be used to identify and review      with FDTS 3.0.                                developed and in
the financial disclosure requirements for                                                     operation by March
new hires, senior employees, positions                                                        1, 2003.
with revised ethics indicators, and new
positions.
4: That the DAEO establish procedures to        GC/EA will establish procedures               The written
track the receipt of data requested from        consistent with the recommendation, and       procedures will be
overseas missions and Washington bureaus        the information will be incorporated into     developed and in
about personal services contractors and         the FDTS. Although information                operation by March
foreign service national employees that         regarding PSCs and FSNs is not included       1, 2003.
need to file financial disclosure reports,      in downloads from the NFC, GC/EA will
follow up when responses are not received,      nevertheless include this information in
and promptly input the data received in the     the FDTS. These employees will be
Financial Disclosure Tracking System.           entered into the FDTS based on
                                                information received from AMS officers
                                                and EXOs (see response to
                                                Recommendation 2). This information
                                                will be updated prior to filing periods in
                                                the same fashion.
5: That the DAEO establish procedures to        The contractor incorporated the ability to    Complete, subject
produce financial disclosure report             produce financial disclosure report           only to contractor
exception lists from its database at specific   exception lists into FDTS 3.0. See            testing and final
intervals during the year, particularly near    Attachment 3, LAR 960 and 961.                delivery of FDTS
the end of each reporting cycle. The            GC/EA will develop procedures and             3.0. Delivery is
reports should be used to remind late filers    standard notices for reminding late filers.   anticipated not
of their responsibilities and the                                                             later than February
consequences for non-compliance. The                                                          1, 2003. Standard
database should incorporate notations                                                         procedures and
regarding communications with late filers                                                     form notices will
and any reasons for unusual delays.                                                           be in place by
                                                                                              March 1, 2003.




                                                                                                                     38
6: That the DAEO prepare detailed written       A draft copy of the draft FDTS user’s           Complete, subject
procedures or a user manual describing all      manual is complete. (Attachment 4.)             only to contractor
aspects of maintaining and operating the        This will be put in final form once testing     testing and final
Financial Disclosure Tracking System.           is complete on FDTS 3.0 and final               delivery of FDTS
                                                delivery is made.                               3.0. Delivery is
                                                                                                anticipated not
                                                                                                later than February
                                                                                                1, 2003.
7: That the DAEO establish an ethics            FDTS 3.0 includes database information          Complete, subject
training tracking system that is clearly tied   related to the ethics training program, and     only to contractor
to the financial disclosure tracking system     that information is clearly tied to financial   testing and final
to ensure all financial disclosure filers are   disclosure information. See Attachment          delivery of FDTS
included, and identifies which                  3, LAR 931, 932, and 933. The financial         3.0. Delivery is
trainees/employees are (a) public filers,       disclosure information includes public          anticipated not
who must have annual verbal training, (b)       and confidential filers. See Attachment 3,      later than February
other required trainees who must have           LAR 934. FDTS 3.0 also includes                 1, 2003.
verbal training at least once every three       reporting for employees not required to
years, and (c) additional trainees not          be trained but who were nevertheless
required to have training.                      trained. See Attachment 3, LAR 936.
8: That the DAEO prepare detailed               GC/EA will prepare written procedures in        The written
procedures for administering the ethics         accordance with the recommendation,             procedures will be
training tracking system to include             including detailed instructions for entry of    developed and in
specified timeframes for (a) automated          data and technical aspects of FDTS 3.0.         operation by March
downloads from the financial disclosure         FDTS 3.0 has the capability to produce          1, 2003.
tracking system, (b) inquiries on current       exception reports regarding training not
staffing the missions and bureaus, and (c)      yet completed. See Attachment 3, LAR
production of discrepancy or exception          932.
reports to identify required training not yet
completed. Procedures should also include
detailed instructions for entry of data and
technical aspects of the automated system
to minimize problems associated with
possible GC/EA staff turnover or
shortages.
9: That the DAEO establish procedures to        GC/EA will develop a written procedure          The written
track whether all bureaus and missions          for identifying required filers and entering    procedures, along
have responded to GC/EA’s annual inquiry        that information into the FDTS. The             with the form
for updated staffing information and follow     procedure will require receipt of mission       notices to missions
up as necessary when responses are not          and bureau information by a certain             and bureaus, will
received by deadlines.                          period prior to the filing due dates, and       be developed by
                                                will require the input of that information      March 1, 2003
                                                into the FDTS by GC/EA staff. These are         (after the delivery
                                                the same procedures identified in               of FDTS 3.0 and
                                                response to Recommendation 1.                   prior to the public
                                                                                                filing period in
                                                                                                May 2003).




                                                                                                                      39
10: That the DAEO develop detailed           GC/EA will develop written procedures   The written
written procedures for identifying and       consistent with the recommendation.     procedures for use
extracting accurate data from its tracking   GC/EA will assure that reports to OGE   of FDTS 3.0 in
systems for presentation in the annual       reflect the best data available.        preparing such
USAID response to the Office of                                                      reports will be
Government Ethics Annual Program                                                     developed and in
Questionaire.                                                                        operation by March
                                                                                     1, 2003. We will
                                                                                     develop interim
                                                                                     procedures for the
                                                                                     use of FDTS 2.0
                                                                                     for any reports that
                                                                                     are due prior to the
                                                                                     delivery of FDTS
                                                                                     3.0.




                                                                                                            40
